APPENDIX A

United States v. Brome, 942 F.3d 550 (2019)

is limited to claims of lack of adequate notice. 18
U.S.C.A. § 983.

942 F.3d 550
United States Court of Appeals, Second Circuit.
UNITED STATES of America, Appellee,
v.
James BROME, aka Trouble,

1 Cases that cite this headnote
[2]

The overriding constitutional question when
determining whether to set aside a civil forfeiture
under the Civil Asset Forfeiture Reform Act
(CAFRA) is whether notice of the forfeiture
comports with the Due Process Clause of
the Fifth Amendment, which requires that the
government provide notice that is reasonably
calculated under all the circumstances to apprise
the prisoner of both the pendency of the cash
forfeiture and the prisoner’s right to contest it.
U.S. Const. Amend. 5; 18 U.S.C.A. § 983.

aka B, Defendant-Appellant. *
Docket Nos. 18-858-cr(L), 18-1199-cr(CON)
|
August Term, 2018
|
Argued: April 12, 2019
|
Decided: November 7, 2019
Synopsis
Background: After conviction of conspiracy to possess
with intent to distribute, and to distribute, cocaine, prisoner
filed petition for return of his property that was seized by
police officers when he was pulled over for traffic violation
several weeks prior to his arrest on crimes of conviction. The
United States District Court for the Western District of New
York, Siragusa, J., denied petition. Prisoner appealed. The
Court of Appeals, 646 Fed.Appx. 70, vacated and remanded
to determine whether forfeiture notices were adequate. On
remand, the District Court determined notice was adequate
and denied motion. Prisoner appealed.

1 Cases that cite this headnote
[3]

Forfeitures
Notice and process
The government does not need to provide actual
notice for a civil forfeiture; it is enough that
it attempt to provide actual notice. U.S. Const.
Amend. 5; 18 U.S.C.A. § 983.

[4]
[Holding:] The Court of Appeals held that notice of forfeiture
of $21,019 in cash was reasonably calculated to apprise
prisoner of pendency of forfeiture.

Constitutional Law
Forfeitures and proceedings therefor
Forfeitures
Notice and process
To comport with due process and the Civil
Asset Forfeiture Reform Act (CAFRA), the
government generally must demonstrate the
existence of procedures reasonably calculated
to ensure that a prisoner receives notice of the
forfeiture action; the government is not obliged
to prove actual notice, such as a signed receipt
from the served prisoner, and it needs only
to attempt to provide such notice. U.S. Const.
Amend. 5; 18 U.S.C.A. § 983.

Affirmed.
See also, 2019 WL 5842905.

West Headnotes (7)
[1]

Constitutional Law
Forfeitures and proceedings therefor

Forfeitures
Grounds and Defenses
The right to seek to set aside the forfeiture under
the Civil Asset Forfeiture Reform Act (CAFRA)

[5]

Forfeitures
Notice and process

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Brome, 942 F.3d 550 (2019)

The government is not required to engage in
any heroic efforts to notify a prisoner about a
forfeiture proceeding; it will ordinarily suffice if
the government demonstrates that it sent notice
by certified return receipt to the correctional
facility where the prisoner is detained and that
the facility’s mail distribution procedures are
reasonably calculated to deliver the mail to the
prisoner. 18 U.S.C.A. § 983.

Sean C. Eldridge, Assistant United States Attorney (Mary C.
Baumgarten, Assistant United States Attorney, on the brief),
for James P. Kennedy, Jr., United States Attorney for the
Western District of New York, Rochester, NY, for Appellee
United States of America.
Before: CALABRESI, LIVINGSTON, and LOHIER, Circuit
Judges.
Opinion

[6]

Forfeitures
Notice and process
Whether a particular method of notice of civil
forfeiture is reasonable depends on the particular
circumstances. 18 U.S.C.A. § 983.

[7]

Constitutional Law
Forfeitures and proceedings therefor
Forfeitures
Notice and process
Notice to prisoner of administrative forfeiture
of $21,019 in cash found upon arrest
was reasonably calculated under all the
circumstances to apprise prisoner of the
pendency of the cash forfeiture, and thus did
not violate prisoner's due process rights or
Civil Asset Forfeiture Reform Act (CAFRA);
notice was sent by certified mail, return receipt
requested, to prisoner at county jail, mail was
accepted for delivery by an employee at the jail,
who signed for it, and written notice was also sent
by first class mail, received at the facility, and
entered into the incoming mail log. U.S. Const.
Amend. 5; 18 U.S.C.A. § 983.

*551 Appeal from the United States District Court for the
Western District of New York (Siragusa, J.)
Attorneys and Law Firms
Steven Y. Yurowitz, Newman & Greenberg LLP, New York,
NY, for Defendant-Appellant James Brome.

Per Curiam:
James Brome appeals from an order of the United States
District Court for the Western District of New York (Siragusa,
J.) denying his challenge to the administrative forfeiture of
$21,019 found in his pocket upon arrest. In this opinion,
we address and reject Brome’s argument that the Drug
Enforcement Administration (DEA) failed to provide him
with adequate notice of the administrative forfeiture action
while he was in prison, in violation of the Due Process
Clause of the Fifth Amendment. We hold that the Government
generally must demonstrate the existence of procedures
reasonably calculated to ensure that a prisoner receives notice
of the forfeiture action. In a separate summary order filed
simultaneously with this opinion, we dispose of Brome’s
remaining challenge to the District Court’s denial of his
motion to reduce his sentence under 18 U.S.C. § 3582(c)(2).

BACKGROUND
Shortly after midnight on September 12, 2010, a police officer
with the Lyons Police Department in Wayne County, New
York stopped a car driven by Brome’s common-law wife
with Brome in the passenger seat. After running identification
checks, the officer learned that neither Brome nor his wife
had a valid driver’s license and that Brome was on parole for
a felony weapons conviction. Both Brome and his wife were
asked to step out of the car and were patted down for weapons.
The officer seized $21,019 in cash from Brome’s pockets.
For reasons not relevant here, the local district attorney’s
office declined to proceed with a state forfeiture action
relating to the seized cash, and on October 7, 2010, the DEA
adopted the seizure and proceeded with a federal forfeiture
action under *552 18 U.S.C. § 983 and 19 U.S.C. §
1607. Consistent with these statutory provisions, the DEA
attempted to send notice of its forfeiture to Brome. On

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Brome, 942 F.3d 550 (2019)

November 3, 2010, the DEA mailed notice to Brome’s last
known home address, but the mail was returned unopened.
Notice of the cash seizure was also published in the Wall
Street Journal three times in three consecutive weeks that
same month.
On November 30, 2010, the DEA arrested Brome on state
narcotics charges, and he was detained in the Wayne County
jail facility. That same day, the DEA sent notice of the
forfeiture again to Brome’s home address. On December 27,
2010, it sent notice by certified mail and first class mail
to Brome in the Wayne County jail where he was actually
located. The notice mailed to the jail incorrectly listed the date
of seizure as October 7, 2010, rather than the actual seizure
date of September 12, 2010.
By February 22, 2011, Brome had not filed a claim for the
seized cash, so the DEA administratively forfeited it under
federal law. In May 2011 a federal grand jury indicted Brome
for conspiring to possess with intent to distribute cocaine and
cocaine base, and the state charges against him were dropped.
Over two years later, on September 16, 2013, Brome,
proceeding pro se, moved in the District Court pursuant to
Rule 41(g) of the Federal Rules of Criminal Procedure for
the return of the seized cash. The District Court denied the
motion, and Brome appealed. Construing Brome’s motion as
a challenge to the sufficiency of the DEA’s notice, a panel of
this Court vacated the District Court’s denial and instructed
it on remand to determine in the first instance whether the
notices had been adequate. See United States v. Brome, 646
F. App'x 70, 73 (2d Cir. 2016).
On remand, the Government submitted an affidavit from an
officer employed at the Wayne County jail where Brome was
detained. The affidavit described the inmate mail logging and
distribution system in operation there at the time the DEA
attempted to send notice to Brome and explained that an
officer would distribute the mail by calling the name of each
inmate who received mail on a particular day. Def. App’x 74–
75. Attached to the affidavit was a printout of the mail log for
December 29, 2010, showing that the Wayne County jail had
received two envelopes from the DEA addressed to Brome
that day. Def. App’x 77.
Relying on the Government’s affidavit and citing Dusenbery
v. United States, 534 U.S. 161, 122 S.Ct. 694, 151 L.Ed.2d
597 (2002), the District Court found that the DEA’s notice to
Brome at the Wayne County jail “was reasonably calculated

to apprise Brome of the administrative forfeiture.” Def. App’x
86. It therefore denied Brome’s Rule 41(g) motion, and this
appeal followed.

DISCUSSION
[1]
[2]
[3] The relevant section of the Civil Asset
Forfeiture Reform Act of 2000 (“CAFRA”), 18 U.S.C. §
983, provides “the exclusive remedy for seeking to set
aside a declaration of forfeiture under a civil forfeiture
statute.” Id. § 983(e)(5). The right to seek to set aside the
forfeiture is limited to claims of lack of adequate notice.
Lucas v. United States, 775 F.3d 544, 547 (2d Cir. 2015).
The overriding constitutional question, of course, is whether
notice of the forfeiture comports with the Due Process Clause
of the Fifth Amendment, which requires that the Government
provide notice that is “reasonably calculated under all the
circumstances” to apprise the prisoner of both the “pendency
of the cash forfeiture” and the prisoner’s right to contest it.
*553 Dusenbery, 534 U.S. at 168, 122 S.Ct. 694. Although
we previously held that the Government needed to provide
“actual” notice, see Yeung Mung Weng v. United States, 137
F.3d 709, 715 (2d Cir. 1998), we have since recognized that
Dusenbery abrogated that holding, see Yeung Mung Weng v.
United States, 29 F. App'x 731, 732 n.2 (2d Cir. 2002). Today,
we hold, consistent with Dusenbery, that the Government
does not need to “provide actual notice”; it is enough that it
“attempt to provide actual notice.” Dusenbery, 534 U.S. at
170, 122 S.Ct. 694.
But that does not end our inquiry. Even after Dusenbery,
a split persists among the courts of appeals regarding what
constitutes adequate notice to prisoners. In particular, there
is no “single view” about whether a presumption exists “that
notice sent by mail to the institution in which the addresseeprisoner is housed” is reasonably calculated to apprise an
incarcerated petitioner of the forfeiture action. Nunley v.
Dep’t of Justice, 425 F.3d 1132, 1137–38 (8th Cir. 2005). The
First, Sixth, Seventh and Tenth Circuits have held that such
a presumption exists when the notice is by certified mail to
the proper prison facility. See Chairez v. United States, 355
F.3d 1099, 1101–02 (7th Cir. 2004); Whiting v. United States,
231 F.3d 70, 76–77 (1st Cir. 2000); United States v. Real
Property (“Tree Top”), 129 F.3d 1266 (Table), at *2 (6th Cir.
1997); United States v. Clark, 84 F.3d 378, 381 (10th Cir.
1996). The Third and Fourth Circuits have declined to apply
any presumption. Instead, they place the onus squarely on the
Government to show that the correctional facility’s internal

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Brome, 942 F.3d 550 (2019)

procedures for delivering mail are reasonably calculated to
notify the prisoner. See United States v. Minor, 228 F.3d
352, 358 (4th Cir. 2000); United States v. One Toshiba Color
Television, 213 F.3d 147, 155 (3d Cir. 2000) (en banc). The
Eighth Circuit, meanwhile, has charted a somewhat different
course. It rejects the concept of an “irrebuttable presumption”
that a prison’s mail delivery procedures are adequate, and
instead places the burden on the prisoner to demonstrate the
inadequacy of the procedures. See Nunley, 425 F.3d at 1137–
38.

New York 31, Lyons, NY, 14489. And the mail was accepted
for delivery by an employee at the jail, who signed for it.
Written notice was also sent by first class mail, received at the
facility, and entered into the incoming mail log. We therefore
agree with the District Court that notice here was “reasonably
calculated to apprise Brome of the administrative forfeiture
action.” 1 Def. App’x 86.

Brome disputes that sending the notice to the jail was
“reasonably calculated” to apprise him of the forfeiture
action. First, he argues that the DEA was required to know
[4]
[5]
[6] Joining the Third and Fourth Circuits, we at the time it sent notice that the mail distribution procedures
at the Wayne County jail were adequate. This cannot be
hold that the Government generally must demonstrate the
right since the Supreme Court in Dusenbery itself relied
existence of procedures reasonably calculated to ensure that
on after-the-fact testimony of a corrections officer, not any
a prisoner receives notice of the forfeiture action. To be clear,
federal official’s subjective knowledge of the prison’s notice
the Government is not obliged to prove actual notice, such
procedures, to determine in that case that notice satisfied due
as a signed receipt from the served prisoner, One Toshiba
process. See 534 U.S. at 165–66, 169, 122 S.Ct. 694. So
Color Television, 213 F.3d at 155, and it needs only to attempt
long as the Government has the burden of showing that its
to provide such notice, Dusenbery, 534 U.S. at 170, 122
methods were “reasonably calculated” to inform the prisoner
S.Ct. 694. Nor do we require the Government to engage in
of the forfeiture, imposing such a knowledge requirement is
any “heroic efforts” to notify a prisoner about a forfeiture
unnecessary. Second, Brome argues that the notices were not
proceeding. Id. It will ordinarily suffice if the Government
“reasonably calculated” to apprise him of the forfeiture action
demonstrates that it sent notice by certified return receipt to
because they incorrectly listed the funds’ “seizure date” as
the correctional facility where the prisoner is detained and
October 7, 2010, the date the DEA adopted the seizure from
that the facility’s mail distribution procedures are reasonably
local authorities. We disagree. The notices included enough
calculated to deliver the mail to the prisoner. Id. But the
other identifying information, such as the exact amount of
point is that we will not simply presume that the Government
money at issue and the place where it was seized, that
satisfies its burden by representing that it sent notice by direct
we easily conclude that due process was not offended by
mail. Instead, we agree with the Third Circuit that “whether
the minor error. Despite the error, Brome was fully able
a particular method of notice is reasonable depends on the
to understand the “pendency of the cash forfeiture.” See
particular circumstances.” One Toshiba Color Television, 213
id. at 168, 122 S.Ct. 694. We therefore affirm the District
F.3d at 153 (quoting Tulsa Prof’l Collection Servs. v. Pope,
Court’s dismissal of Brome’s challenge to the adequacy of the
485 U.S. 478, 484, 108 S.Ct. 1340, 99 L.Ed.2d 565 (1988)).
Government’s notice.
[7] With these principles in mind, we agree with the
District Court that the Government showed that its notice
to the Wayne County jail where Brome was detained was
“reasonably calculated under all the circumstances” to apprise
Brome “of the pendency of the cash forfeiture.” *554
Dusenbery, 534 U.S. at 168, 122 S.Ct. 694. We note that the
mail procedures at the jail, including its use of a mailroom
“logbook” and the distribution of mail during a mail call, are
similar in every relevant way to those approved in Dusenbery.
See id. at 169, 122 S.Ct. 694. The December 27, 2010 notice
was sent by certified mail, return receipt requested, to James
S. Brome, Prisoner ID No. 101700, Wayne County Jail, 7368

CONCLUSION
For the foregoing reasons and those set forth in the
accompanying summary order, we AFFIRM the order of the
District Court.
All Citations
942 F.3d 550

Footnotes

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Brome, 942 F.3d 550 (2019)

*
1

The Clerk of Court is directed to amend the official caption to conform with the above.
It therefore goes almost without saying that we would consider the notice here adequate under any of the rules announced
by our sister circuits.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

APPENDIX B

United States v. Brome, 783 Fed.Appx. 100 (2019)

783 Fed.Appx. 100 (Mem)
This case was not selected for
publication in West's Federal Reporter.
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY
1, 2007, IS PERMITTED AND IS GOVERNED BY
FEDERAL RULE OF APPELLATE PROCEDURE
32.1 AND THIS COURT'S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A
DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX
OR AN ELECTRONIC DATABASE (WITH THE
NOTATION "SUMMARY ORDER"). A PARTY CITING
A SUMMARY ORDER MUST SERVE A COPY OF IT
ON ANY PARTY NOT REPRESENTED BY COUNSEL.
United States Court of Appeals, Second Circuit.
UNITED STATES of America, Appellee,
v.
James BROME, aka Trouble,
aka B, Defendant-Appellant. *
No. 18-858-cr(L); No. 18-1199-cr(CON)
|
November 7, 2019
Appeal from the order of the United States District Court
for the Western District of New York (Charles J. Siragusa,
Judge).
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the order of
the District Court is AFFIRMED.
Attorneys and Law Firms
FOR DEFENDANT-APPELLANT: Steven Y. Yurowitz,
Newman & Greenberg LLP, New York, NY.
FOR APPELLEE: Sean C. Eldridge, Assistant United States
Attorney (Mary C. Baumgarten, Assistant United States
Attorney, on the brief), for James P. Kennedy, Jr., United
States Attorney for the Western District of New York,
Rochester, NY.
PRESENT: GUIDO CALABRESI, DEBRA ANN
LIVINGSTON, RAYMOND J. LOHIER, JR., Circuit Judges.

SUMMARY ORDER
James Brome appeals from an order of the District Court
(Siragusa, J.) denying his motion to reduce his sentence under
18 U.S.C. § 3582(c)(2). In this summary order, we address
whether the District Court abused its discretion in denying
Brome’s motion to reduce his sentence. In a separate opinion
filed simultaneously with this summary order, we affirm
the District Court’s order denying Brome’s motion under 18
U.S.C. § 983 for the return of cash that the Drug Enforcement
Administration seized from him and later forfeited. With
respect to the issues that are the subject of this summary order,
we assume the parties’ familiarity with the underlying facts
and the record of prior proceedings, to which we refer only as
necessary to explain our decision to affirm.
Brome pleaded guilty to one count of conspiracy to distribute
and possess with intent to distribute five kilograms or more
of cocaine, pursuant to a Federal Rule of Criminal Procedure
11(c)(1)(C) plea agreement in which the parties agreed to
a term of imprisonment of 204 months. At sentencing,
the District Court adopted the presentence investigation
report’s calculation of a Guidelines range for Brome of
235 to 293 months, which was higher than the plea
agreement’s calculation of 188 to 235 months. The District
Court nevertheless accepted Brome’s Rule 11(c)(1)(C) plea,
sentencing him principally to 204 months’ imprisonment.
In 2015 Brome moved for a sentence reduction under 18
U.S.C. § 3582(c)(2) based on the retroactive application of
Guidelines Amendment 782, which reduced the base offense
level for his narcotics conspiracy offense by two levels.
See U.S. SENTENCING GUIDELINES MANUAL app. C.,
amend. 782 (U.S. SENTENCING COMM’N 2014). The
District Court denied Brome’s motion, but in a prior appeal
we vacated that decision because it did not “sufficiently
illuminate [its] reasoning so as to permit this Court to review
the district court’s exercise of discretion.” United States v.
Brome, 665 F. App'x 89, 91 (2d Cir. 2016). On remand,
the District Court reconsidered and again denied Brome’s §
3582(c) motion.
When, as here, a defendant is eligible for a sentencing
reduction under § 3582(c), we review a district court’s denial
for *102 abuse of discretion. United States v. Christie, 736
F.3d 191, 195 (2d Cir. 2013). Here, as it was required to do,
the District Court considered the relevant factors under 18

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Brome, 783 Fed.Appx. 100 (2019)

U.S.C. § 3553(a), including the need for Brome’s sentence
to reflect the seriousness of his offense and his personal
history and characteristics. The District Court focused in
particular on Brome’s past behavior, including his numerous
parole violations. For these reasons, we conclude that the
District Court did not abuse its discretion in declining to
reduce Brome’s sentence under the circumstances presented
here. That Brome’s sentence of 204 months fell within
the applicable amended Guidelines range reinforces our
conclusion.
Brome also argues that the District Court did not give
him enough of an opportunity to defend his § 3582(c)
motion on remand, in violation of his due process rights.
We are not persuaded. Section 3582 authorizes “only a
limited adjustment to an otherwise final sentence and not a
plenary resentencing proceeding.” Dillon v. United States,
560 U.S. 817, 826, 130 S.Ct. 2683, 177 L.Ed.2d 271 (2010);

see U.S.S.G. § 1B1.10(a)(3). A defendant is accordingly
not guaranteed the same procedural protections as in the
sentencing context. Christie, 736 F.3d at 195. Here, Brome
was aware of our decision to vacate the District Court’s
original decision regarding his § 3582(c) motion, and there
is no evidence that he attempted to submit anything in
connection with the District Court’s reconsideration of that
motion, or that he was denied the opportunity to do so.
Accordingly, Brome’s due process argument is without merit.
We have considered all of Brome’s remaining arguments that
are not the subject of the accompanying opinion and conclude
that they are without merit. For the foregoing reasons, the
order of the District Court is AFFIRMED.
All Citations
783 Fed.Appx. 100 (Mem)

Footnotes

*

The Clerk of Court is directed to amend the official caption as shown above.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

APPENDIX C

Case 18-1199, Document 82, 03/10/2020, 2798050, Page1 of 1

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
_____________________________________________
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
10th day of March, two thousand twenty.
______________________________________________
United States of America,
ORDER

Appellee,

Docket No: 18-858, 18-1199
v.
James Brome, AKA Trouble, AKA B,
Defendant - Appellant
______________________________________________
Appellant James Brome, filed a petition for panel rehearing, or, in the alternative, for
rehearing en banc. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.

FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

